           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     CLAIMANT REPRESENTATIVES
      BARRED FROM PRACTICING
         BEFORE THE SOCIAL
      SECURITY ADMINISTRATION

  September 2007    A-12-07-17057




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:          September 28, 2007                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Claimant Representatives Barred from Practicing before the Social Security
           Administration (A-12-07-17057)

           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) implementation
           of section 205 of Public Law 108-203, the Social Security Protection Act of 2004
           (SSPA), with respect to the recognition, disqualification, and reinstatement of claimant
           representatives.

           BACKGROUND
           The hearing process begins after an applicant for benefits has been denied at the initial
           and reconsideration levels. The next step in the appeals process is a hearing before an
                                                                                           1
           Administrative Law Judge (ALJ). At the hearing level, a claimant may appoint a
           qualified attorney or non-attorney to represent them in pursuing his/her disability claim.
           Hearings are held by one of the Office of Disability Adjudication and Review’s (ODAR)
           140 hearing offices located nationally. In Fiscal Year (FY) 2006, ODAR processed
           559,000 dispositions 2 where approximately 439,000 of the dispositions involved an
           attorney or non-attorney. 3 All attorney and non-attorney representatives who practice

           1
             The Appointment of Representative Form (SSA-1696) is completed by the claimant appointing a
           qualified attorney or non-attorney to represent the claimant in connection with his/her claim, and is also
           completed by the attorney or non-attorney accepting the appointment (see Appendix B for a copy of the
           form.)
           2
            Dispositions do not always relate to a hearing. For example, the dismissal of a case is recorded as a
           disposition.
           3
            In FY 2006, approximately 26,000 attorneys and 5,000 non-attorneys represented claimants before
           ODAR. These numbers are estimates based on the names of representatives in ODAR’s Case
           Processing and Management System (CPMS). The actual numbers may vary due to limitations when
           summarizing on the representatives’ names. For example, the same representative may be listed several
           different ways (e.g., John Smith, John E. Smith, and John Smith, Esq.). In addition, three representatives
           with the exact same name may show up as only one representative when the information is summarized.
           Only unique identifiers per representative within CPMS, such as a Social Security number, would allow a
           more exact count.
Page 2 - The Commissioner

before SSA must comply with SSA’s Rules of Conduct and Standards of Responsibility
                                                                                 4
for Representatives, which are affirmative duties SSA expects representatives to
perform professionally as they assist claimants in obtaining and submitting evidence to
further the efficient, fair, and orderly conduct of the Agency’s decision process. 5

In March 2004, the President signed into law the SSPA. Section 205 of the SSPA
provides additional protections for claimants against attorney and non-attorney
misconduct. The SSPA and SSA regulations authorize the Commissioner of SSA to
disqualify a representative if the attorney or non-attorney has been disbarred,
suspended, or disqualified from any court, bar, Federal program or Agency he or she
was previously admitted to participate in or practice. 6

Additionally, a representative who has been disqualified or suspended from appearing
before SSA as a result of collecting or receiving a fee in excess of the amount
authorized, shall be barred from appearing before SSA until full restitution is made to
              7
the claimant. We provide additional information on SSPA in Appendix C.

We reviewed SSA’s procedures to screen attorneys and non-attorneys to preclude
suspended/disbarred individuals from appointment before SSA. In addition, we also
contacted Federal agencies with large ALJ cadres to discuss whether they screen and
sanction representatives. Finally, we reviewed the availability of resources related to
the suspension/disbarment of attorneys and non-attorneys. See Appendix D for our full
scope and methodology.

RESULTS OF REVIEW

Prior to the passage of the SSPA, SSA established a screening process to identify
representatives whom the Agency had suspended or disqualified. Since then, SSA
revised the SSA-1696 form, requiring representatives to certify that they have not been
barred by any Federal or State Court or Federal program. However, the Agency has
not taken any additional steps to implement the new SSPA provision regarding
4
 “Representative” denotes someone who meets the qualifications SSA prescribes for either an attorney or
a non-attorney and whom the claimant appoints to act on his/her behalf in pursuing his/her claim before
SSA. See SSA Program Operations Manual System (POMS), General Notices (GN) 03910.020 —Who is
a Representative.
5
  For instance, the Rules of Conduct and Standards of Responsibility for Representatives prohibit certain
representative conduct, such as threatening or deceiving a claimant, or charging or collecting
representational fees in violation of the law.
6
  Prior to the amendment by § 205 of the SSPA, pursuant to § 206(a)(1) of the Social Security Act,
42 U.S.C. § 406(a)(1), SSA had to recognize an attorney who may have been disbarred in one jurisdiction,
if licensed to practice law and in good standing in another jurisdiction.
7
  For the claimant’s protection, a representative cannot charge or collect a fee without first getting written
approval from SSA, and a representative may accept money directly from a claimant in advance only as
long as it is held in a trust or escrow account. The SSPA adds this additional protection for the claimant
by mandating restitution of excess fees charged to the claimant before they can appear before SSA.
Page 3 - The Commissioner

screening. We found that the current screening process does not proactively match
representative data against outside information to detect barred individuals. We also
found that SSA’s existing screening process could be improved. For instance, we
found two cases where Agency-sanctioned representatives were still serving current
claimants. Moreover, we found that representatives initially screened by hearing office
staff were not always the same individuals identified within the SSA’s systems as the
claimant’s representatives. Our review of other Federal agencies that conduct
administrative hearings found these agencies had minimal or non-existent screening
processes. We also found that a more comprehensive screening process is possible
by using publicly available information from States and other organizations. Our own
review of representatives at one hearing office using publicly-available information
found a disbarred attorney representing five SSA claimants in FY 2006. We believe
SSA could collect additional State bar information from representatives to allow for
greater verification in the future. Finally, we found the administrative hearing process
for sanctioning representatives could be timelier to protect both claimants and
representatives.

SCREENING OF CLAIMANT REPRESENTATIVES

Prior to the passage of the SSPA, SSA had established minimal formal screening
procedures to validate whether prospective or appointed representatives had been
barred by SSA. Information about who has been suspended or disqualified by SSA
was posted on an SSA-maintained list: the List of Sanctioned Representatives. Since
the passage of SSPA, SSA has (1) revised the SSA-1696 form, requiring
representatives to certify that they have not been barred by any Federal or State Court
or Federal program; and (2) developed a List of Non-Attorneys Eligible for Direct Pay.
Beyond these procedures, hearing office staff did not use any other formal means to
screen representatives to determine if those appointed had been barred by any State,
Federal court or Federal program.

Both attorneys and non-attorneys 8 seeking to represent claimants before SSA provide
                                                          9
professional and personal information on a SSA-1696. Since the passage of SSPA,
the SSA-1696 has also required the representative to answer a “yes” or “no” question
as to whether they have been disbarred or suspended from a court or disqualified from
appearing before a Federal program or agency. By signing the form, representatives
certify under penalty of perjury that all information provided is correct. SSA staff also
noted that the Agency also learns of possible representational misconduct through
claimant complaints or Agency employees who detect it in the course of their official

8
  Many non-attorneys are family members who represent the claimant one time, while others work
professionally as claimant representatives full-time. Claimants may appoint anyone who is not an attorney
to be their representative in dealings with SSA if he or she is—(1) generally known to have a good
character and reputation; (2) capable of giving valuable help in connection with the claim; (3) not
disqualified or suspended from acting as a representative in dealing with SSA; and (4) not prohibited by
any law from acting as a representative. See SSA POMS, GN 03910.020 —Who is a Representative.
9
    See Appendix B for a copy of this form.
Page 4 - The Commissioner

duties. In such cases, SSA staff develops evidence concerning the potential violations
of the Rules of Conduct and Standards of Responsibility for Representatives and refer
them to the Office of General Counsel’s Office of General Law.
                                                                    10
The representative’s assertion is recorded within ODAR’s CPMS with the rest of the
representative’s information from the SSA-1696. At the time hearing office staff copy
the information to CPMS they are also required to validate if the representative seeking
appointment is disqualified or suspended by matching the representative’s name
against SSA’s List of Sanctioned Representatives. This master list of sanctioned
representatives is maintained on a SSA webpage and linked to CPMS. As of
May 2007, SSA had 134 disqualified or suspended representatives on this list (see
Figure 1 below). After checking the list, hearing office staff note within CPMS either a
‘yes’ or ‘no’ to indicate whether the representative is on the sanctioned list. If the
representative’s name is found on this listing, the representative is notified that he/she
cannot represent the claimant before SSA.

                                               Figure 1: Sanctioned Representatives at SSA
                                                              (As of May 2007)
                 Number of Representatives




                                             100
                                              80
                                              60
                                              40
                                              20
                                               0
                                                     Disqualified            Suspended
                                                                Type of Action

                                                          Attorney    Non-Attorney


In addition to the List of Sanctioned Representatives, ODAR hearing office staff also
checks the non-attorney information against the Agency’s List of Non-Attorneys Eligible
for Direct Pay. This non-attorney listing was established under SSPA as part of a
5-year nationwide demonstration project that extends to certain non-attorney
representatives of claimants under Titles II and XVI the option to have approved
representative’s fees withheld and paid directly from the beneficiary’s past due



10
  CPMS is an automated system that tracks the claim as it progresses through the hearing process, and
provides vital information about the claim in lieu of the claim folder (see Appendix E for copy of the input
screen).
Page 5 - The Commissioner

          11
benefits. Hearing office staff must ensure the non-attorney representative is on this
list before authorizing them for direct payment within the CPMS system. While this list
is not the same as a sanctioned list, non-attorneys approved under this program who
fail to maintain certain standards, such as continuing liability insurance coverage, are
annotated on the list as being ineligible. Once the representatives submit evidence that
they have renewed their insurance policy, they again become eligible to participate.

ADEQUACY OF THE SCREENING PROCESS

We found sufficient evidence to support the accuracy of the information in the List of
Sanctioned Representatives. Our comparison of claimant representatives to the
sanctioned list found two representatives who were disqualified by SSA while
representing claimants before SSA during the period of our review. We also found that
the representative information in SSA’s systems was not always consistent with the
SSA-1696.

Sanctioned List Accuracy

We found adequate support for the disqualified/suspended representatives placed on
SSA’s List of Sanctioned Representatives. 12 Providing SSA employees with accurate
and timely information concerning sanctioned representatives both facilitates the
effective enforcement of SSA's decisions to suspend or disqualify representatives, and
protects claimants and the claims process from individuals who have violated SSA's
conduct rules or who are not qualified to be representatives.

To assess the accuracy of the listing, we reviewed a sample of eight attorneys and non-
attorneys who had been disqualified/suspended by SSA and placed on the Agency’s
List of Sanctioned Representatives. We requested Office of General Counsel (OGC)
litigation folders and compared the ALJ decisions and sanction dates imposed to
information on the listing. Our sample showed that OGC posted information that
accurately reflected both the ALJ decision and the correct date for imposition of the
sanction.




11
  Non-attorney representatives who wish to participate in the demonstration project must meet the
prerequisites specified in Section 303 of the SSPA. The prerequisites for participating in the project
include securing professional liability or equivalent insurance and undergoing a criminal background
check. The SSPA permits the Commissioner to establish additional prerequisites. The Commissioner
added a minimum representational experience requirement. See SSA Office of the Inspector General
(OIG), Demonstration Project for Non-Attorney Representatives (A-12-06-16013), June 2006.
12
  SSA’s Sanctioned Representative List shows the effective dates of sanctioning or disqualifying
representatives as early as 1980. Of the names on the list in May 2007, 50 representatives have been
sanctioned since 2001, with a high of 15 in 2002. Representatives whose suspensions ended have been
removed from the list.
Page 6 - The Commissioner

Practicing Representatives

To assess the adequacy of the screening process, we compared the names of
representatives who attended hearings before ODAR in FY 2006 to the May 2007 List
of Sanctioned Representatives. We compared the last names of attorneys and non-
attorneys who represented claimants in FY 2006 and compared them to the 134 names
on the List of Sanctioned Representatives. We found two cases where it appeared
sanctioned representatives were representing claimants before SSA after they were
disqualified. An attorney was disqualified and placed on the List of Sanctioned
Representatives by SSA in August 1997 and represented two claimants from April
2003 until May 2007. A non-attorney was disqualified in September 2001 and
represented a claimant from March 2005 until July 2006. We referred this information
to the appropriate hearing offices. In both cases, hearing office staff have confirmed
our findings and agreed that these claimant representatives should not have practiced
before SSA.

Management Information

We found the representative’s name listed in CPMS did not always agree with the
representative’s name located on the SSA-1696. When this representative information
is inconsistent, ODAR cannot ensure the representative(s) actually appointed has
                                                                13
attested to statements regarding disbarment/suspension actions.

We reviewed a sample of 50 claims folders to determine whether the SSA-1696, or
other written statements in the claim folder, matched information in CPMS. 14 We found
four folders (8 percent) where the SSA-1696 and CPMS information did not match. In
two cases information from the SSA-1696 showed a different representative than
CPMS, and in the remaining two, there was no information in CPMS although the SSA-
1696 was in the claims folder. When discrepancies exist between the SSA-1696 and
CPMS, SSA cannot be certain the representatives have certified that they have not
been disbarred, suspended or disqualified by other courts, nor is the information
available for comparison to the List of Sanctioned Representatives.

OTHER FEDERAL AGENCIES

We found that other Federal agencies with claimant representatives have minimal or
non-existent screening processes for representatives prior to their appointment. We


13
  As noted earlier, the SSA-1696 is a notice to SSA that a claimant appointed a representative and the
representative agrees to the appointment. If the representative serving the claimant is not named on the
SSA-1696, the legal relationship between the two parties, as well as SSA’s ability to protect the client, may
be at risk.
14
  The information in CPMS is updated by hearing office staff from the SSA-1696 filed in the claim folder.
Updated information includes the representative’s name, address, phone, fax, representative’s firm and
certification by the attorney or non-attorney as to whether he or she has been sanctioned.
Page 7 - The Commissioner
                                                                     15
contacted staff at five Federal entities with large ALJ contingents and asked them to
outline the procedures used to screen the representatives appearing before them. We
found that although each entity had legislation to sanction attorneys for misconduct or
lack of qualifications, none could identify screening procedures for the representatives
prior to their appointment or during their official duties as representatives (see Figure 2
below).

                   Figure 2: Federal Agencies with Large ALJ Cadres
                               Interviewed for this Report
                            (ALJ Counts Provided by Each Agency)

                                          47 40 16
                                     78


                               235




                                                          1,107

                         SSA
                         Department of Homeland Security
                         Department of Health and Human Services
                         National Labor Relations Board
                         Department of Labor
                         Department of Energy


OTHER SCREENING RESOURCES

A number of resources are available to SSA if the Agency were to expand its screening
to include outside resources. Many State disciplinary websites are available to check
attorneys who are currently disbarred or suspended. In addition, the American Bar
Association (ABA) plans to expand its current service to screen attorneys using a
central data bank culled from state and federal courts and other regulatory agencies.
However, SSA may need to capture additional information from attorneys to use such
services to improve the effectiveness of future verifications.




15
  We contacted staff at the Department of Energy, the Department of Health and Human Services, the
Department of Homeland Security, the Department of Labor, and the National Labor Relations Board.
SSA employs about 72 percent of all ALJs in the Federal Government.
Page 8 - The Commissioner

Available State Data

SSA can verify the disbarred/suspended status of lawyers by using resources from
individual State disciplinary agencies and commissions, bar associations or State court
web-sites to prevent lawyers who have been disbarred or suspended elsewhere from
appearing before SSA. These web-sites offer public information on disciplined
attorneys to be responsive to the public and allow consumers to protect themselves
from negligent, unscrupulous or incompetent attorneys.

To determine the usefulness of such State-based services, we reviewed the names of
371 attorneys who represented claimants at hearings in the Atlanta North Hearing
Office in FY 2006. We found that 205 attorneys were listed with the State Bar of
Georgia as members in good standing and one attorney had been disbarred by the
Georgia Supreme Court in October 2005. A further review of hearing office records
found that this disbarred attorney represented five claimants before SSA during
FY 2006. For instance, one of his clients was denied benefits at a September 2006
hearing. We referred this attorney’s name to the Atlanta North Hearing Office to
determine if the hearing office was aware of the attorney’s disbarment and, if so, took
any action related to this case.

We were unable to determine the “good standing” of the remaining 165 attorneys since
they were not listed on the State Bar of Georgia site. It is possible that these attorneys
                                     16
were members of other State bars. However, the SSA-1696s did not contain
sufficient information to pursue this matter further. Attorneys would need to provide
SSA with both the name of the State(s) where they are members of the bar as well as
their State bar number(s) and/or other relevant State bar identifiers. If SSA collected
this additional information, they would be able to verify the standing of the attorneys
directly with State bars via telephone, mail or the Internet.

SSA recently initiated a new process to collect additional identifiers from attorneys,
including taxpayer identification numbers, as well as the State(s) where the attorney
has been admitted to practice law. This additional information is collected on the
                                                                                    17
Request for Appointed Representative’s Direct Payment Information (SSA-1699) and
is maintained in a database for later retrieval. This form and database could also be
used to collect and maintain information, such as an attorney’s State bar number(s), so
SSA could periodically verify the attorney’s good standing with the relevant State bar(s).




16
 In the case of Federal hearings, as is the case with ODAR hearings, an attorney is not required to be a
member of the State bar in the State where the hearing takes place.
17
   This form is used to secure the necessary information from the representative for direct payment of fees
as well as for issuance of Form 1099-MISC. The representative is required to list business affiliations
related to representation. Also, the representative can provide bank information and request that the fee
be paid by direct deposit. See Appendix F for a copy of the electronic form.
Page 9 - The Commissioner

Available National Data

Centralized fee-based data is also available to assist SSA with screening. The ABA’s
National Lawyer Regulatory Data Bank contains information from public records from
                                                                         18
each United States jurisdiction concerning sanctions against attorneys. A centralized
repository of disbarred/suspended attorneys could eliminate the need to verify attorneys
with Bar associations in the 50 States. While the current verification process entails
sending a letter for each attorney being screened, ABA staff stated the Data Bank will
be available as an on-line service in 2008. Such a service could allow SSA to
periodically screen all attorneys. 19

REPRESENTATIVE SANCTION HEARINGS

Our review of SSA’s administrative hearing process for sanctioning claimant
representatives found that it can take a year or more. SSA cannot protect claimants
against unprofessional or unethical conduct, or protect representatives against
unfounded complaints, if there are unnecessary delays in administering the sanction
process. As part of due process, a representative is allowed to continue to practice
before SSA until a decision is made to sustain the charges.

We reviewed a sample of OGC administrative sanction folders and found that once a
case went from OGC to ODAR for a final decision, it took between 5 and 17 months for
                                                 20
the designated hearing officer to hear the case. OGC reviews referrals and
determines if the representative may have committed a violation. If OGC decides to file
charges, they must serve a notice containing a statement of charges on the
representative. If a representative files an answer, and that answer satisfies the
General Counsel that SSA should not sanction the representative, OGC will withdraw
the charges. However, if OGC does not withdraw the charges, ODAR will designate an
ALJ to hold a hearing on the charges. After the hearing, the ALJ determines whether to
                                             21
sustain the charges and issues a decision.

For example, from 1992 through 1994 an attorney successfully represented four
claimants before SSA, but was erroneously issued four duplicate checks from SSA, two

18
     This service is not designed to assist with non-attorney screening.
19
  The current cost is $10 for each name searched, though it is possible that an on-line service combined
with volume transactions might reduce this cost.
20
  We could not determine from our sample the time-line from issuance of a complaint to a decision for
each case, because it could not be gleaned from documentation in the OGC files we reviewed.
21
  Both parties have the right to request Appeals Council review, but in the absence of an appeal, the
ALJ’s decision becomes final and binding. If either or both parties appeal, the Appeals Council may deny
or dismiss the Request for Review, modify or reverse the ALJ’s decision, or remand the case for further
proceedings. If the Agency issues a final decision suspending or disqualifying an attorney, it will send a
copy of that decision to the relevant State bar(s).
Page 10 - The Commissioner
                                                                 22
payments in 1994, and two payments in 1995, totaling $11,287. The attorney never
responded to letters from SSA requesting refunds for the four payments. SSA
attempted over the course of several years to have the money refunded. SSA did not
serve notice of the charges until February 2001, and disqualified him in January 2002.
We also learned that this same attorney was disbarred by the New York State bar in
November 1994 for failing to account for assets worth $837,129 and subsequently pled
guilty to grand larceny. He received a prison sentence of 3 to 10 years in a New York
correctional institution. 23

SSA recently streamlined the administrative hearings process for sanctioning claimant
representatives. Since July 2007, OGC is filing requests for hearings in representative
sanction cases with the Office of the Chief Administrative Law Judge (OCALJ) directly.
Previously, cases went through the Deputy Commissioner for Disability and Income
Security Programs 24 who approved holding a hearing, and then to the Associate
Commissioner for Hearings and Appeals who designated an ALJ to hear the case. In
addition, OCALJ has assembled a volunteer cadre of ALJs who are available to hold
sanction hearings expeditiously. 25 As noted earlier, a more expeditious process should
benefit both claimants and their representatives.

CONCLUSION AND RECOMMENDATIONS

While SSA has a screening process in place to match representatives against internal
lists, a more comprehensive screening against lists maintained by other entities would
offer greater assurance that representatives have not been disbarred or suspended
from any court, bar, Federal program or Agency he or she was previously admitted to
participate in or practice before. In addition, this enhanced screening may require the
collection of additional information from the attorney, such as the State(s) he/she are
admitted to practice law and his/her State bar number(s). SSA could also improve the
integrity of the data it already collects to ensure claimants are properly protected and
attorneys certify that they are not disbarred, suspended, or disqualified.




22
  Attorney overpayments were reviewed in another SSA OIG audit, Controls Over Multiple Payments to
Attorneys (A-12-06-20016), issued in September 2006.
23
  We do not have a historical listing to determine if this attorney was on the earlier List of Sanctioned
Representatives, but it is unlikely since he was continuing to represent SSA claimants until his 2002
suspension. Either he was on the list and SSA did not notice, or he was not on the list and a more
comprehensive review of State bar data could have detected his disbarment. The New York State Unified
Court System web site lists this attorney as “Resigned from the bar - disciplinary reasons.”
24
  ODAR (formerly the Office of Hearings and Appeals) was part of the Office of Disability Income and
Security Programs before it became a separate component in April 2006.
25
   If OGC initiates sanction proceedings and charges are not withdrawn, OCALJ will designate an ALJ
from a different geographic region than the one in which the representative primarily practices from the
volunteer ALJ cadre and hold a hearing.
Page 11 - The Commissioner

To improve the screening of representatives and ensure the integrity of representative
data, we recommend SSA:

1. Require hearing offices to ensure the claimant representative’s name in CPMS
   relates to the name on a completed SSA-1696.

2. Ensure staff compares the claimant representative’s name to the List of Sanctioned
   Representatives each time a SSA-1696 is added to CPMS.

3. Collect additional claimant representative data that can assist with verification of
   their “good standing,” such as their State(s) of admission and their State bar
   number(s) for attorneys.

4. Develop a pilot to verify whether claimant representatives have been disbarred,
   suspended, or disqualified against lists maintained by other entities to determine the
   costs and benefits of such controls. These entities could include State bars and/or
   other entities that collect and maintain similar disciplinary data.

AGENCY COMMENTS

SSA agreed with our recommendations and plans to take corrective action. The full
text of the Agency’s comments is included in Appendix G.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Appointment of Representative Form

APPENDIX C – Intent of Claimant Representative Oversight

APPENDIX D – Scope and Methodology

APPENDIX E – Representative & Fee Query Screen

APPENDIX F – Request for Appointed Representative’s Direct Payment Information
            (SSA-1699)

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                       Appendix A
Acronyms
ABA     American Bar Association
ALJ     Administrative Law Judge
CPMS    Case Processing and Management System
FY      Fiscal Year
GN      General Notices
OCALJ   Office of Chief Administrative Law Judge
ODAR    Office of Disability Adjudication and Review
OGC     Office of General Counsel
OGL     Office of General Law
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SSA     Social Security Administration
SSPA    Social Security Protection Act of 2004
                                     Appendix B

Appointment of Representative Form
(SSA-1696)




                     B-1
B-2
                                                                        Appendix C

Intent of Claimant Representative Oversight
A goal of the Social Security Protection Act of 2004 (SSPA) was to provide better
oversight of representatives and protect claimants. Prior to SSPA, attorneys disbarred
in one jurisdiction, but licensed to practice in another jurisdiction, could be recognized
as a claimant’s representative. The SSPA provisions were intended to close this
loophole to prevent any licensed attorney from being automatically authorized to
represent a claimant if barred in any jurisdiction.

In the Senate Report 108-176, the Committee commented in its “Reason for Change”
section that it remained concerned that SSA did not yet have a system in place to verify
whether a person seeking appointment as a claimant representative was in fact an
attorney, and further stated that SSA had no system to determine whether an attorney
who sought appointment had been disbarred.

While these comments reflect the Committee’s thoughts that specific proactive steps
would need to be taken by SSA for the Commissioner’s authority to be exercised, the
ultimate language of the legislation did not require the Commissioner to take specific
steps; it left the implementation to the discretion of the Commissioner.
                                                                                   Appendix D

Scope and Methodology
To accomplish our review, we:

•   Reviewed Section 205 of the Social Security Protection Act of 2004 and relevant
    House and Senate Reports on the legislation.

•   Met with Office of Disability Adjudication and Review (ODAR) staff and gained an
    understanding of how ODAR (1) recognizes the appointment of attorneys and non-
    attorneys to represent claimants before the Social Security Administration (SSA)
    and (2) screens attorneys barred by other Federal courts or programs and/or State
    courts to preclude them from appearing before SSA.

•   Met with Office of General Counsel (OGC) staff and gained an understanding of the
    responsibilities, process and time it takes to sanction or disbar a representative once
    referred to the Office of General Law (OGL) within OGC.

•   Reviewed a sample of eight OGC litigation folders from representatives with
    documents of the disciplinary proceedings for each case selected. To select our
    sample, we randomly selected one folder (individual) from each of the eight States 1
    that had six or more sanctioned representatives. We compared the relevant
    documents within these eight cases against information on SSA’s List of Sanctioned
    Representatives and tracked the time it takes once ODAR appointed a Hearing
    Officer until a decision was reached on a sanction case by an Administrative Law
    Judge.

•   Reviewed 50 randomly selected Appointment of Representative (SSA-1696) forms
    and compared them to the representative data in the Case Processing and
    Management System (CPMS) from five hearing offices 2 in Region IV 3 to determine
    whether attorney and non-attorney information were consistent.

•   Reviewed the names of Representatives with dispositions in Fiscal Year (FY) 2006
    obtained from CPMS and compared them to SSA’s List of Sanctioned
    Representatives.

1
 The eight States were Alabama, California, Georgia, Louisiana, Mississippi, New York, Texas and
West Virginia.
2
 The five hearing offices were: Atlanta (downtown), Georgia; Jacksonville, Florida; Fort Lauderdale,
Florida; Mobile, Alabama; and Orlando, Florida.
3
 Region IV consists of 31 hearing offices located in Alabama, Florida, Georgia, Kentucky, Mississippi,
North Carolina, South Carolina and Tennessee.



                                                   D-1
•   Determined which Federal agencies have the largest number of attorneys or non-
    attorneys appointed and interviewed managers at those agencies to determine how
    they screen, qualify and disbar attorneys or non-attorneys to identify useful
    information and best practices for SSA. We contacted staff at the Department of
    Energy, the Department of Health and Human Services, the Department of
    Homeland Security, the Department of Labor, and the National Labor Relations
    Board.

•   Compared the names of 390 attorneys representing claimants in the Atlanta North
    Hearing Office, extracted from the FY 2006 CPMS dispositions file, to the State Bar
    of Georgia Member services internet data file to determine their discipline and bar
    status.

•   Contacted the American Bar Association staff to discuss the availability of
    nationwide statistics on attorney disciplinary actions.

We performed limited data reliability tests on the claimant representative data for
FYs 2005 and 2006 and found it was reliable for the purposes of this audit. We were
unable to determine the precise number of attorney and non-attorneys due to data
limitations within CPMS. The principal entities audited were ODAR under the Deputy
Commissioner for Disability Adjudication and Review, and OGL under the Office of
General Counsel. We performed our audit between October 2006 and May 2007 in
Falls Church, Virginia. We conducted our audit in accordance with generally accepted
government auditing standards.




                                           D-2
                                                                              Appendix E
Representative & Fee Query Screen
The Representative & Fee Query Screen is replicated below from the Case Processing
Management System (CPMS). Hearing office staff input information from the
Appointment of Representative form (Form SSA-1696) and use the information in
CPMS to inform them of who is representing the claimant.


Representative & Fee - Query                                  Previous Menu Item | Next Menu Item



Representative Information


Representative Information
Appointment of representative filed:   Yes
Name:                                  Eleanor Rose Berardi
Attorney:                              Yes
Sanctioned:                            No
Firm:
Address:                               1234 Anywhere
                                       Anywhere, MD 21284
                                       United States



Phone:                                 410-222-2222
Extension:
Fax:
Email:
Dates of representation:               08/25/06 to Present
Fee waived date:
Direct payment waived date:
                                                                                  Appendix F
Request for Appointed Representative’s Direct
Payment Information (SSA-1699)

About You

                                     Name: ELEANOR ROSE BERARDI
                Social Security Number: ***-**-7807
                 Tax Mailing Address: 1234 Anywhere
  (We will send the 1099-MISC to this Anywhere, MD 21284
                            address.) UNITED STATES

Your Professional Information

Registered to receive direct payments Attorney
                                  as:
   Admitted to practice law and am in U.S. District Court, District of Maryland, MD
  good standing at the following court:

Business Affiliation(s) In Your Work as an Appointed Representative

                                                Correspondence and
         About this Affiliation                                                 Payment Preference
                                                      Contact
ELEANOR ROSE BERARDI                           1234 Anywhere                  Check to:
Sole Proprietor, Single-Member                 Anywhere, MD 21284             1234 Anywhere
LLC/LLP                                        UNITED STATES                  Anywhere, MD 21284

                                               Tel: 4102222222
          Signed via Electronic Signature, dated Fri Aug 25 12:32:02 EDT 2006
Source: Sample input form taken from the Office of Disability Adjudication and Review’s website.
                  Appendix G

Agency Comments
                                          SOCIAL SECURITY
MEMORANDUM

Date:       September 24, 2007                                             Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       David V. Foster /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Claimant Representatives Barred
            from Practicing before the Social Security Administration” (A-12-07-17057)--
            INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

           Attachment:
           SSA Response




                                                          G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "CLAIMANT REPRESENTATIVES BARRED FROM PRACTICING
BEFORE THE SOCIAL SECURITY ADMINISTRATION" (A-12-07-17057)

Thank you for the opportunity to review and provide comments on this draft report. Our
responsibility to ensure claimants’ representatives comply with our Rules of Conduct and
Standards of Responsibility for Representatives and the authority provided to us in Section 205
of the Social Security Protection Act to disqualify a representative (attorney/non-attorney) based
on a disbarment or suspension by a court or bar, or disqualification by a Federal agency or
program are important aspects of SSA’s stewardship responsibilities. We appreciate your review
of this area and helpful recommendations.

Regarding the specific findings, we are pleased that this review found sufficient evidence for
all the suspension cases reviewed thereby validating the accuracy of the information in the
“List of Sanctioned Representatives” maintained by our Office of the General Counsel.
Regarding the adequacy of the screening process, we agree that more can be done. However,
we need to carefully evaluate the workload and potential resource impact that any additional
screening may place on our already scarce resources. Regarding the data mismatches, when
comparing information contained on the SSA-1696 - Appointment of Representative Form and
the data in our Case Processing Management System, there are a number of contributing factors
that would result in name mismatches. For example, some representatives use a business name
and signature; however, their legal names as reflected in our records are different, this can
result in an erroneous mismatch. Finally, we appreciate your acknowledgement of our
screening process efforts as compared to other Federal agencies and the reference to our
expanded process to collect additional identifiers from attorneys to aid in the accuracy of the
screening process.

Our responses to the specific recommendations are provided below.

Recommendation 1

SSA should require hearing offices to ensure the claimant representative’s name in CPMS
matches the name on a completed SSA-1696.

Comment

We agree. By March 31, 2008, we will issue an appropriate reminder to our regional and
hearing office management teams asking that staff ensure that the representative’s name in
CPMS matches the name on the completed SSA-1696.

Recommendation 2

SSA should ensure that the staff compare the claimant’s representative’s name to the List of
Sanctioned Representatives each time a SSA-1696 is added to CPMS.




                                               G-2
Comment

We agree. Our current hearing office staff training reflects this practice. We will include
language to reinforce this practice in a reminder to our regional and hearing office management
teams which is scheduled to be issued by March 31, 2008.

Recommendation 3

SSA should collect additional claimant representative data that can assist with verification of
their “good standing,” such as their State(s) of admission and their State bar number(s) for
attorneys.

Comment

We agree. We are planning systems work in fiscal year (FY) 2008 to develop an electronic
i1696 application to enhance the data collection process.

Recommendation 4

SSA should develop a pilot to verify whether claimant representatives have been disbarred,
suspended, or disqualified against lists maintained by other entities to determine the costs and
benefits of such controls. These entities could include State bars and/or other entities that
collect and maintain similar disciplinary data.

Comment

We agree. We plan to develop a pilot in FY 2009. The pilot will be contingent on the FY 2008
systems work (including the availability of sufficient data) and adequate staff resources.




                                                G-3
                                                                     Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080
   Michael Maloney, Audit Manager, Philadelphia Audit Division, (703) 578-8844

Acknowledgments

In addition to those named above:
   Mary Ann Braycich, Senior Program Analyst
   Nick Milanek, Senior Auditor
   Yaquelin Lara, Auditor
   Brennan Kraje, Statistician
   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-07-17057.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
